No.

Mbe

'upreme Court of the Ettiteb *Mai
♦
WILLIAM F. HOLDNER,
An Individual, dba HOLDNER FARMS,
Petitioner,
v.
KATY COBA, Director of the Department of
Agriculture, in her individual and official capacity;
DICK PEDERSON, Director of the Oregon
Department of Environmental Quality,
in his individual and official capacity,
Respondents.
♦
On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit
♦
PETITION FOR WRIT OF CERTIORARI
♦
WILLIAM F. HOLDNER, Pro Se
32244 Scappoose Vernonia Hwy.
Scappoose, OR 97056
Tel: 1-503-233-4601
Fax: 1-503-987-1272
E-mail: jane@holdnerbaum.com
Petitioner

RECEIVED
JUL 1 8 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

1

QUESTIONS PRESENTED
Whether a person engaged in an agricultural
operation can be charged and convicted for failure to
possess a stormwater permit under Oregon State
Statute ORS 468B-025 for "Likely" to Pollute the public waters.
Whether a stormwater permit is required
where the operator has constructed an animal waste
control system to protect the public waters from a 24
hour 25 year rainfall event under ,Federal Environmental Protection Agency (EPA) Regulations.
Whether a permit for stormwater discharges
can be enforced by any government agency on property
that has a patent granted by congress as a condition of
the establishment of an agricultural farm operation in
1862 that provided the owner with absolute title including the water, creeks and water use rights.
Whether the application of Habeas Corpus is
appropriate, after all state and federal court relief is
exhausted, to protect petitioner's due process and federally protected rights.

11

LIST OF PARTIES
William F. Holdner, an individual, dba Holdner
Farms, Petitioner, Katy Coba, Director of the Oregon
Department of Agriculture, in her individual and official capacity. Dick Pederson, Director of the Oregon Department of Environmental Quality, in his individual
and official capacity. Both respondents are state employees and are represented by the Oregon Attorney
General Office.

111

RELATED CASES
On October 29, 2015 Petitioner's Complaint Case
No. D.C. 3:15-CV-02039-AC was filed in Federal District Court to vacate Oregon Circuit Court Judgment
for being charged and prosecuted under ORS 468B-025
for "Likely" to pollute the public waters.
Ninth Circuit, Memorandum, 04/24/19
District Court, Opinion and Order, 07/02/18
District Court, Judgment, 07/02/18
Ninth Circuit, Mandate, 01/22/18
Ninth Circuit, Memorandum, 07/06/17
District Court, Opinion and Order, 06/01/16

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
LIST OF PARTIES

ii

RELATED CASES

iii

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVI2
SIONS AT ISSUE
STATEMENT OF THE CASE

4

STATEMENT OF FACTS

4

ARGUMENT

6

CONCLUSION

8

APPENDIX
United States Court of Appeals for the Ninth
App. 1
Circuit, Memorandum, filed 04/24/19
United States District Court, District of Oregon,
Portland Division, Opinion and Order, filed
App. 3
07/02/18
United States District Court, District of Oregon,
Portland Division, Judgment, filed 07/02/18 ... App. 15
United States Court of Appeals for the Ninth
App. 17
Circuit, Mandate, filed 01/22/18

V

TABLE OF CONTENTS — Continued
Page
United States Court of Appeals for the Ninth
App. 18
Circuit, Memorandum, filed 07/06/17
United States District Court, District of Oregon,
Portland Division, Opinion and Order, filed
App. 21
06/01/16

vi
TABLE OF AUTHORITIES
Page
CASES:
Doug Decker in the capacity as Oregon State
Forester, et al. v. Northwest Environmental
Defense Center, No. 11-338-S. (CT. March 20,
2013)

7

National Pork Producers Council, et al. v. EPA,
Case No. 08-671093 (5th Cir. March 15, 2011)

7

Waterkeeper Alliance, Inc. v. Environmental Protection Agency, 399 F. 3d 486 (2d Cir. 2005)

7

United States Supreme Court Decision Summa
Corp. .v. Cal. State Lands Commission, 466
U.S. 198 (1984)

8

CONSTITUTION:
U.S. Const. Amend. V

3

U.S. Const. Amend. XIV

3

RULES:
Sup. Ct. R. 13(1)

1

STATUTES:
28 U.S.C. § 1254(1)

1

28 U.S.C. § 2254(1)(b)

2

28 U.S.C. § 1342(p)(1)

7

28 U.S.C. § 1983

2

vii
TABLE OF AUTHORITIES — Continued
Page
FEDERAL STATUTORY AUTHORITIES:
40 CFR § 122.23(e)

7

EPA IMPLEMENTATION GUIDANCE ON
CAFO REGULATIONS DATED May 28, 2010

7

OREGON STATUTORY AUTHORITIES:
ORS 468B-025

5, 6

ORS 468B-200

6

ORS 468B-203

6

ORS 468B-230

6

1
OPINIONS BELOW
On October 29, 2015 Petitioner's Complaint Case
No. D.C. 3:15-CV-02039-AC was filed in Federal District Court to vacate Oregon Circuit Court Judgment
for being charged and prosecuted under ORS 468B-025
for "Likely" to pollute the public waters.
Ninth Circuit, Memorandum, 04/24/19
District Court, Opinion and Order, 07/02/18
District Court, Judgment, 07/02/18
Ninth Circuit, Mandate, 01/22/18
Ninth Circuit, Memorandum, 07/06/17
District Court, Opinion and Order, 06/01/16
_
JURISDICTION
For a review of a decision of the Federal District
Court Case No. 3:15CV-2039-AC the judgment was affirmed by the United States Court of Appeals, for the
Ninth Circuit in a memorandum decision on April 24,
2019. The Writ of Certiorari is filed within 90 days of
that date pursuant to United States Supreme Court
Rule 13(1). This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
♦

2
CONSTITUTIONAL AND
,
STATUTORY PROVISIONS AT ISSUE
Petitioner believes the decision constitutes, under
42 U.S.C. § 1983 and 28 U.S.C. § 2254, a violation of due
process, a federally protected right under the Fifth and
Fourteenth Amendments of the United States Constitution.
42 U.S.C. § 1983 provides in relevant part:
Every person who, under color or statute, ordinance, regulation, Custom, or usage, or any
State . . . subjects, or caused to be subjected,
any Citizen of the United States of other
person within the jurisdiction thereof To the
deprivation of any rights, privileges, or immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at Law, suit in equity, or other proper
proceeding for redress.
28 U.S.C. § 2254 provides in relevant part:
(1)(b) An application for a Writ of Habeas
Corpus on behalf of a person in Custody pursuant to the judgment of a state court shall
not be granted Unless it appears that —
(A) The applicant has exhausted' the remedies available in the courts of The state; or
(B)(i) There is an absence of available state
corrective process; or
(ii) Circumstances exist that render such
process ineffective to protect the rights of the
applicant.

3
The Fifth Amendment of the United States Constitution provides:
no person shall be held to answer for a capital,
or otherwise infamous crime, unless on a presentment of indictment of a grand jury, except
in cases arising in the land or naval forces, or
in the militia, when in actual service in time
of war or public danger; nor shall any person
be subject for the same offense to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
without due process of law; nor shall private
property be taken for public use, without just
compensation.
The Fourteenth Amendment of the United States
Constitution provides In relevant part:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
state wherein they reside. No state shall make
or enforce any law which shall abridge the
privileges or immunities of the citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without
process of law, nor deny to any person within
its Jurisdiction the equal protection of the
laws.

•

4
STATEMENT OF THE CASE
The District Court was asked to vacate State Circuit Judgment for failure to possess State NPDES
Stormwater Permits. The Petitioner exhausted everything within his power to achieve a favorable result before the judgment became final.
The District Court ruled the Petitioner lacked
standing based on the Eleventh Amendment Immunity that barred a Section 1983 claim under the United
States Constitution.
♦

STATEMENT OF FACTS
In 1968, the appellant began a purebred Polled
Hereford cattle operation, raising breeding stock for
sale.
In the mid 1970's, the Petitioner, in cooperation
with United States Department of Agriculture, designed and constructed an animal waste control system to protect the environment and provide clean
water for the cattle to drink from an adjacent creek.
The system in place proyided a 40,000 gallon concrete
holding tank to collect any waste water that can be
pumped to the pasture area some distance (up to onehalf mile) from the animal feeding facility and clean
water from the creek could be pumped in water tanks
for the cattle. The system was designed, constructed
and operated to handle stormwater discharges from
25 year 24 hour rainfall event. It was determined that

5
shortly after purchase of the property that the only
good source of water had to come from the creek near
the facility. The sub-surface water contained high concentrations of salt and iron and the property had no
wells.
In about 2007, the Oregon Department of Agriculture (ODA) insisted that a National Pollutant Discharge Elimination System (NPDES) permit was
required under state law. As part of the permit PROCESS and PLAN of CORRECTION the ODA demanded that the appellant immediately stop pumping
the waste water from facility to the pasture area. With
a permit the ODA would allow an authorized discharge
of the waste water into the waters of the state under
unspecified special and general conditions. This conflicted with the system developed to provide during
stormwater events to protect the environment and
have clean water for the cattle.
At trial the ODA program manager, Mr. Matthews
testified that the Petitioner was not charged for being
a significant contributor of Pollution to the public waters but for failure to possess a (NPDES) state permit.
He also admitted on cross examination that the Oregon Department of Agriculture (ODA) was not approved by the EPA to operate an independent NPDES
program.
The Petitioner was convicted of two counts of
unlawful water pollution in the first degree under
ORS 468B-025 for "likely" to pollute and 28 counts
of unlawful pollution in the second degree for not

6
actually polluting but for days pumping the water
away from the feeding facility. Sentencing provided for
a $300,000.00 fine, supervised probation for 3 years,
remediation of $50,000.00 as the Petitioner divest
himself of all his cattle within 90 days. Petitioner was
not allowed cattle on any property he managed or
owned or has an interest in and 5 days in jail. Approximately 50 head cows with calves were located on the
100 plus acres where the Animal Feeding Facility was
located.
♦

ARGUMENT
The Petitioner was charged and convicted of criminal violations for failure to possess a stormwater permit under ORS 468B-025. Quote "States no person
shall cause pollution of waters of the state or place or
cause wastes that are "likely" to escape or be carried
into the waters of the state by any means." This Oregon statute under Federal EPA regulations and Federal Supporting Case Law as applied to Petitioners
farm operation is "on its face" unconstitutional.
Oregon has a special statute ANIMAL WASTE
CONTROL ORS 468B-200 to ORS 468B-230 that applies to Animal Feeding Operations. ORS 468B-203
Quotes, "States enforcement must be consistent with
federal law, regulations and guidelines issued pursuant to the Federal Water Pollution Control Act, P.L. 92500."

7
United States Environmental Protection Agency
(EPA) IMPLEMENTATION GUIDANCE ON CAFO
REGULATIONS DATED May 28, 2010, "States in 40
CFR § 122.23(e), a discharge from a land application
area under the control of a CAFO is subject to NPDES
permit requirements, except where it is an agricultural
stormwater discharge." The CLEAN WATER ACT definition of point source excludes discharges of agricultural stormwater and such discharges are therefore
not subject to permit requirements.
Two United States Courts of Appeals and United
States Supreme Court cases have ruled on federal EPA
regulations as they apply to stormwater discharge permit. Waterkeeper Alliance, Inc. v. Environmental Protection Agency, 399 F.3d 486 (2nd Cir. 2005) ruled no
statutory obligation to seek or obtain a NPDES permit
is required. In National Pork Producers Council, et al.
v. EPA Case No. 08-61093 (5th Cir. March 15, 2011) upheld the Waterkeeper decision that no NPDES permits
are required for potential discharges. United States
Supreme Court Case No. 11-338 and 11-347, Doug
Decker in the capacity as Oregon State Forester, et al.
v. Northwest Environmental Defense Center (March
20, 2013), ruled stormwater discharges from logging
roads were exempt from the NPDES permit regulations. See 33 U.S.C. § 1342(p)(1). The terms potential
or likely are synonymous as they relate to stormwater
discharges are exempt from a permit under federal
law.
The property on which the cattle feeding facility
is located has a patent granted by CONGRESS as a

8
conditioh of the establishment, an agricultural farm
operation in 1862 provided the owner with absolute title including the water, creeks and water use rights.
United States Supreme Court Decision, Summa Corp.
v. Cal. State Lands Commission, 466 U.S. 198 (1984)
Federal rights are protected.
Oregon has a statute ORS 537-120 states, Quote
"Nothing in the Water Rights Act shall be construed to
take away or impair the vested rights under the patent."
The Eleventh Amendment Immunity is not applicable when public officials are acting out of or exceeding their authority. Cited United States Supreme
Court Ex Parte Young Case No. 209 U.S. 123, 285.CT.
441; 526 Ed. 714; 1908 U.S. Lexus 1726 that allows
suits in Federal Courts against officers acting on behalf of States of the Union to proceed despite the
state's sovereign immunity, when the state acted unconstitutionally.
♦

CONCLUSION
The subject matter in this dispute involves stormwater discharges that have been addressed through
federal legislation and case law under the Federal Water Pollution Control Act. For this reason, while this
suit implicates a state interest, the Petitioner believes
the federal government has a strong interest in enforcing federal constitutional rights and remedies.

9
No court has ruled on the constitutionality of the
state statute under which the petitioner was charged
and convicted. The state court decision clearly contravenes the state and federal law and petitioner as a result has been irreparably injured. The petitioner has
been denied equitable relief and adequate vindication
of his Due Process and federally protected rights,
granted under the United States Constitution.
For the foregoing reasons the petitioner pray the
Writ of Certiorari will be granted.
Respectfully submitted,
WILLIAM F. HOLDNER, Pro Se
32244 Scappoose Vernonia Hwy.
Scappoose, OR 97056
Tel. No. 503-233-4601
Fax. No. 503-987-1272
E-mail: jane@holdnerbaum.com

